<html>
<title> - THE NASA AUTHORIZATION ACT OF 2013</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                         THE NASA AUTHORIZATION
                              ACT OF 2013

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 19, 2013

                               __________

                           Serial No. 113-37

                               __________

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://science.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

81-726PDF                 WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                         Subcommittee on Space

               HON. STEVEN M. PALAZZO, Mississippi, Chair
RALPH M. HALL, Texas                 DONNA F. EDWARDS, Maryland
DANA ROHRABACHER, California         SUZANNE BONAMICI, Oregon
FRANK D. LUCAS, Oklahoma             DAN MAFFEI, New York
MICHAEL T. McCAUL, Texas             JOSEPH KENNEDY III, Massachusetts
MO BROOKS, Alabama                   DEREK KILMER, Washington
LARRY BUCSHON, Indiana               AMI BERA, California
STEVE STOCKMAN, Texas                MARC VEASEY, Texas
BILL POSEY, Florida                  JULIA BROWNLEY, California
DAVID SCHWEIKERT, Arizona            FREDERICA S. WILSON, Florida
JIM BRIDENSTINE, Oklahoma            EDDIE BERNICE JOHNSON, Texas
CHRIS STEWART, Utah
LAMAR S. SMITH, Texas























                            C O N T E N T S

                            Date of Hearing

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Steven M. Palazzo, Chairman, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    95
    Written Statement............................................    96

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    98
    Written Statement............................................    99

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................   101
    Written Statement............................................   102

                               Witnesses:

Dr. Steven W. Squyres, Goldwin Smith Professor of Astronomy, 
  Cornell University
    Oral Statement...............................................   103
    Written Statement............................................   106

Mr. A. Thomas Young, Former Executive Vice President, Lockheed 
  Martin Corporation
    Oral Statement...............................................   114
    Written Statement............................................   117

Discussion.......................................................   125

             Appendix I: Answers to Post-Hearing Questions

Dr. Steven W. Squyres, Goldwin Smith Professor of Astronomy, 
  Cornell University.............................................   142

            Appendix II: Additional Material for the Record

Submitted statement by Representative Dana Rohrabacher, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   158

Submitted letter by Representative Dana Rohrabacher, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   160

Submitted letter by Representative Steve Stockman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   161

Submitted report, Investment in Space Technology is Critical for 
  NASA and our Nation's Future, by Robert D. Braun, David and 
  Andrew Lewis Professor of Space Technology, Georgia Institute 
  of Technology..................................................   162

 
                   THE NASA AUTHORIZATION ACT OF 2013

                              ----------                              


                        WEDNESDAY, JUNE 19, 2013

                  House of Representatives,
                                      Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Steven 
Palazzo [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Palazzo. The Subcommittee on Space will come to 
order.
    Good morning. Welcome to today's hearing titled ``The NASA 
Authorization Act of 2013.'' In front of you are packets 
containing the written testimonies, biographies and required 
Truth in Testimony disclosures for today's witnesses. I 
recognize myself for five minutes for an opening statement.
    The discussion draft of the National Aeronautics and Space 
Administration Act of 2013 before us today is the result of 
input from a wide variety of interests throughout the science 
and space communities. The outreach efforts of this Committee 
have been unprecedented, and I am proud of the draft we have 
put together. My goal for this hearing is to ensure that all of 
our Members have an opportunity to ask questions, raise 
concerns and debate important topics. I expect the tenor of 
today's hearing to be respectful. We are all here because we 
care about NASA and want it to succeed.
    The draft bill includes a top line budget of over $16.8 
billion and authorizes the agency for two years. This budget is 
consistent with the requirements of the Budget Control Act.
    In regards to sequestration, I want to take a moment to 
point out that I and several of my colleagues sitting here in 
this room worked extremely hard to avoid getting to this point. 
We have offered solid solutions and replacements for these 
damaging cuts, and we stand ready to work with the Senate and 
the Administration to replace the sequester with responsible, 
strategic cuts. This authorization bill reflects a sincere 
effort to maximize return to the taxpayer while working to 
protect America's role as the world leader in space 
exploration.
    It is realistic and reflective of the hard choices we must 
make as a Nation and provides support for agreed-upon 
priorities. The stark reality is that if we fail to reform 
mandatory spending, discretionary funding for space, science 
and research will continue to shrink.
    The Administration must focus on core programs such as the 
Space Launch System and Orion crew capsule, the International 
Space Station, the James Webb Space Telescope and the 
Commercial Crew program. The Space Launch System is authorized 
at over $1.7 billion and the Orion crew capsule at $1.2 
billion. The SLS and Orion will take our astronauts deeper into 
space than ever before. I am committed to the success of these 
assets and ensuring their continued on-time development and 
appropriate prioritization moving forward.
    The Commercial Crew program is authorized at $700 million, 
but let me be clear: this is not a blank check for the 
Administration. The bill includes several accountability 
measures and a flight readiness deadline of December 31, 2017. 
This deadline is not negotiable. NASA must do whatever is 
necessary in its acquisition model to meet this deadline, even 
if that means radically altering their current plans.
    The International Space Station is authorized at over $2.9 
billion, and the bill includes a framework for NASA to use for 
determining the future life of the Station. This Committee 
intends to ensure the ISS is utilized to the greatest extent 
possible and that every dollar is efficiently allocated with a 
priority placed on microgravity research. The $4.62 billion 
authorized for the Science Mission Directorate ensures critical 
programs will continue on schedule including the James Webb 
Space Telescope and Planetary Science missions. Over the last 
five years, the Earth Science program has grown by more than 40 
percent at the expense of other critical missions within the 
Science Mission Directorate and elsewhere in NASA.
    There are 13 agencies throughout the Federal Government 
that currently fund over $2.5 billion in climate science 
research, but only one agency does space exploration and space 
science. This bill ensures a balanced portfolio of science 
mission programs by simply moderating the increases that Earth 
Science has received over the last five years.
    The Aeronautics Mission Directorate promotes technology 
sharing among government agencies and infuses critical research 
and data into the commercial market. It is authorized at $565 
million with requirements for interagency roadmaps for various 
technology areas.
    This bill authorizes $500 million for the Space Technology 
program. This investment in game-changing technology 
development is crucial for future exploration mission, both 
robotic and human. We also recognize the role this program can 
play in finding innovative solutions to tough problems.
    The President's budget request this year included a major 
structural change to STEM programs at NASA. The full Science 
Committee held a hearing that revealed significant bipartisan 
concerns about this plan. While the Committee generally 
supports consolidation of government programs to ensure 
efficiencies, this change was poorly conceived and is not ready 
for implementation. For this reason, the bill prohibits NASA 
from implementing those changes.
    Another request in the President's budget was an Asteroid 
Retrieval Mission, or ARM. While the Committee supports the 
Administration's efforts to study near-Earth objects, this 
proposal lacks in details, a justification or support from the 
NASA's own advisory bodies. Because the mission appears to be a 
costly and complex distraction, this bill prohibits NASA from 
doing any work on the project, and we will work with 
appropriators to ensure the agency complies with this 
directive.
    In addition to authorizing funding and giving direction to 
the agency for critical missions, the Committee has included 
several measures to ensure good government practices and 
transparency within NASA including reform for the use of Space 
Act Agreements, changes to termination liability requirements 
and stricter cost growth controls.
    As people in our districts and across the Nation continue 
to struggle to find jobs and put food on the table, we must 
ensure that every single dollar appropriated to NASA is spent 
effectively and efficiently. This bill provides commonsense 
guidance and prioritizes those most critical NASA missions.
    [The prepared statement of Mr. Palazzo follows:]

  Prepared Statement of Subcommittee on Space Chairman Steven Palazzo

    The discussion draft of the National Aeronautics and Space 
Administration Act of 2013 before us today is the result of input from 
a wide variety of interests throughout the science and space 
communities. The outreach efforts of this Committee have been 
unprecedented and I am proud of the draft we have put together. My goal 
for this hearing is to ensure that all of our Members have an 
opportunity to ask questions, raise concerns and debate important 
topics. I expect the tenor of today's hearing to be respectful. We are 
all here because we care about NASA and want it to succeed.
    The draft bill includes a topline budget of over $16.8 billion 
dollars and authorizes the agency for two years. This budget is 
consistent with the requirements of the Budget Control Act.
    I will take a moment to point out that I and several of my 
colleagues sitting here in this room worked extremely hard to avoid 
getting to this point. We've offered solid solutions and replacements 
for these damaging cuts, and we stand ready to work with the Senate and 
the Administration to replace the sequester with responsible, strategic 
cuts. This authorization bill reflects a sincere effort to maximize 
return to the taxpayer while working to protect America's role as the 
world leader in space exploration. It is realistic and reflective of 
the hard choices we must make as a nation and provides support for 
agreed-upon priorities. The stark reality is that if we fail to reform 
mandatory spending, discretionary funding for space, science, and 
research will continue to shrink.
    The Administration must focus on core programs such as the Space 
Launch System and Orion crew capsule, the International Space Station, 
the James Webb Space Telescope and the Commercial Crew Program. The 
Space Launch System is authorized at over $1.77 billion and the Orion 
crew capsule at $1.2 billion. The SLS and Orion will take our 
astronauts deeper into space than ever before. I am committed to the 
success of these assets and ensuring their continued on-time 
development and appropriate prioritization moving forward. The 
Commercial Crew program is authorized at $700 million, but let me be 
clear; this is not a blank check for the Administration. The bill 
includes several accountability measures and a flight readiness 
deadline of December 31, 2017. This deadline is not negotiable. NASA 
must do whatever is necessary in its acquisition model to meet this 
deadline, even if that means radically altering their current plans.
    The International Space Station is authorized at over $2.9 billion 
and the bill includes a framework for NASA to use for determining the 
future life of the Station. This Committee intends to ensure the ISS is 
utilized to the greatest extent possible and that every dollar is 
efficiently allocated with a priority placed on microgravity research.
    The $4.62 billion authorized for the Science Mission Directorate 
ensures critical programs will continue on schedule including the James 
Webb Space Telescope and Planetary Science missions. Over the last five 
years the Earth Science program has grown by more than 40% at the 
expense of other critical missions within the Science Mission 
Directorate and elsewhere in NASA. There are 13 agencies throughout the 
federal government that currently fund over $2.5 billion in climate 
science research, but only one agency does space exploration and space 
science. This bill ensures a balanced portfolio of science mission 
programs by simply moderating the increases that Earth Science has 
received over the last five years.
    The Aeronautics Mission Directorate promotes technology sharing 
among government agencies and infuses critical research and data into 
the commercial market. It is authorized at $565 million with 
requirements for interagency roadmaps for various technology areas.
    This bill authorizes $500 million for the Space Technology program. 
This investment in game-changing technology development is crucial for 
future exploration missions--both robotic and human. We also recognize 
the role this program can play in finding innovative solutions to tough 
problems.
    The President's budget request this year included a major 
structural change to STEM programs at NASA. The Full Science Committee 
held a hearing that revealed significant bipartisan concerns about this 
plan. While the Committee generally supports consolidation of 
government programs to ensure efficiencies, this change was poorly 
conceived and is not ready for implementation. For this reason, the 
bill prohibits NASA from implementing those changes.
    Another request in the President's budget was an Asteroid Retrieval 
Mission or ARM. While the Committee supports the Administration's 
efforts to study Near Earth Objects, this proposal lacks in details, 
justification or support from NASA's own advisory bodies. Because the 
mission appears to be a costly and complex distraction, this bill 
prohibits NASA from doing any work on the project and we will work with 
appropriators to ensure the agency complies with this directive.
    In addition to authorizing funding and giving direction to the 
Agency for critical missions, the Committee has included several 
measures to ensure good government practices and transparency within 
NASA including; reform for the use of Space Act Agreements, changes to 
termination liability requirements and stricter cost growth controls.
    As people in our districts and across the nation continue to 
struggle to find jobs and put food on the table, we must ensure that 
every single dollar appropriated to NASA is spent effectively and 
efficiently. This bill provides common sense guidance and prioritizes 
those most critical NASA missions.

    Chairman Palazzo. I now recognize the Ranking Member, the 
gentlelady from Maryland, Ms. Edwards, for an opening 
statement.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you for 
calling this hearing to discuss a draft of the proposed NASA 
authorization bill.
    NASA has been and should continue to be the Nation's crown 
jewel for spurring innovation, highly skilled and good-paying 
jobs, and inspiring the next generation of scientists. It is 
vital that any new NASA Authorization match that same standard.
    I think we both agree that a strong NASA is critical to the 
Nation and that this authorization is vitally important, and it 
is an important opportunity to set the policy direction and 
authorized funding needed to ensure America's global leadership 
in space. It is my hope that we can work together to ensure 
that NASA's mission is clear, establish expectations that will 
inspire the public and the workforce, and then provide the 
level of resources needed to enable the agency to be 
successful. Doing otherwise would not only be a disservice to 
the men and women at NASA, its contractor workforce and the 
American people, but would effectively set the agency on a path 
to failure. I know that Members of this Committee want to see 
NASA thrive, and we must have an authorization bill that 
ensures that.
    Mr. Chairman, we are not, nor should we be, the scientists 
and engineers who devise the programs and projects to meet the 
high-level goals set for the agency. That should be left to the 
capable experts at NASA.
    I was pleased to see that the draft bill contains a number 
of reporting requirements and other provisions taken from the 
2010 House version of the NASA Authorization Act of 2010, since 
those were not included in the enacted law because Members only 
voted on the Senate bill in 2010.
    Developing a plan or a roadmap for human exploration to 
Mars and seeking criteria for evaluating the potential 
extension of ISS operations beyond 2020 are just a few of the 
key areas where I see the potential to build consensus.
    I am concerned however, with several aspects of this draft 
bill, and I question whether, in the end, this draft will serve 
to ensure our Nation's hard-earned leadership in space and all 
the inspiration, discovery, international standing and economic 
benefits that such leadership brings.
    First, the draft bill would appear to shift the emphasis of 
NASA's core mission to human exploration. This is counter to 
the policy of NASA's organic Act, the National Aeronautics and 
Space Act of 1958, as well as to the policy statements of 
multiple NASA authorizations that have seen NASA as a multi-
mission agency with significant activities in science, 
aeronautics and human spaceflight and exploration, and 
technology development
    Another key concern is the level of funding that is 
authorized. The proposed bill would slash NASA's budget by 
almost a billion dollars relative to both the President's 
proposal for Fiscal Year 2014 and the pre-sequester funding 
approved by Congress in Fiscal Year 2012, and it would maintain 
that cut over each of the years of the Majority's authorization 
bill.
    The severe cuts to NASA's top line are manifested 
throughout the draft bill. For example, Earth Science would be 
cut by almost $650 million relative to the Fiscal Year 2014 
request, meaning the Earth Science account is cut by one-third. 
Cuts to Earth Science would not only result in gaps in the data 
needed to understand changes in our Earth system, it would also 
impact on the data needed for water monitoring, forest and 
timber productivity forecasting, improving gas and electric 
utilities load forecasting, and assessing the impact of sea-
level rise in coastal communities. These uses and societal 
benefits are exactly what we hope for when we make Federal 
investments in research and technology. To stop them would be 
irresponsible.
    And the bill appears to shift all Space Technology 
activities to support only exploration-related technology 
development. More importantly, the proposed reduction in 
funding for Space Technology will not keep NASA on a path 
aligned with 21st century innovation and job creation. Plans to 
pursue new technologies such as in-space propulsion and 
cryogenic fuel storage may suffer. The impact of making these 
reductions was not discussed in preceding hearings, as they 
should have been.
    Compounding these things, the bill establishes aggressive 
milestones and activities that run contrary to proposed 
downsized levels without any real regard for safety and 
schedule. These are exactly the pressures of the lessons that 
we learned from both Challenger and Columbia, and we can't 
afford to repeat those tragedies. We cannot expect NASA to 
develop a sustainable and inspiring space program under these 
circumstances, and Mr. Chairman, the Subcommittee has 
historically done best for NASA when we move legislation in a 
bipartisan manner.
    As a minimum, now that the draft bill is open for 
discussion and before we begin considering markup, we should 
first take the time to hold hearings with valued experts and 
stakeholders impacted by the bill's provisions, especially in 
areas such as Earth Science, Space Technology, and Commercial 
Crew safety.
    As we will hear from one of the witnesses today, one way of 
counteracting the high cost of human space exploration may be 
in the form of expanded international partnerships. This is an 
idea that needs to be considered as the journey to Mars will be 
long, yet rewarding for the future of humankind.
    Thank you, and I look forward to hearing from our witnesses 
today.
    [The prepared statement of Ms. Edwards follows:]

   Prepared Statement of Subcommittee Ranking Minority Member Donna 
                                Edwards

    Mr. Chairman, thank you for calling this hearing to discuss a draft 
of the proposed NASA authorization bill.
    NASA has been and should continue to be the Nation's crown jewel 
for spurring innovation, highly-skilled and good paying jobs, and 
inspiring the next generation of scientists. It is vital that any new 
NASA Authorization match that standard.
    I think we both agree that a strong NASA is critical to the nation 
and that this Authorization is a vitally important opportunity to set 
the policy direction and authorize funding needed to ensure America's 
global leadership in space.
    It is my hope that we can work together to ensure that NASA's 
mission is clear, establish expectations that will inspire the public 
and workforce, and then provide the level of resources needed to enable 
the agency to be successful.
    Doing otherwise would not only be a disservice to the men and women 
at NASA, its contractor workforce, and the American people, but would 
effectively set the Agency on a path to failure. I know that Members of 
this Committee want to see NASA thrive; we must have an Authorization 
bill that ensures that.
    Mr. Chairman, we are not, nor should we be, the scientists and 
engineers who devise the programs and projects to meet the high-level 
goals of the Agency. That should be left to the capable experts at 
NASA.
    I was pleased to see that the draft bill contains a number of 
reporting requirements and other provisions taken from the 2010 House 
version of the NASA Authorization Act of 2010, since those were not 
included in the enacted law because Members only voted on the Senate 
bill in 2010.
    Developing a plan or roadmap for human exploration to Mars and 
seeking criteria for evaluating the potential extension of ISS 
operations beyond 2020 are just a few of the key areas where I see the 
potential to build consensus.
    I am concerned however, with several aspects of this draft bill, 
and I question whether, in the end, this draft will serve to ensure our 
nation's hard-earned leadership in space and all the inspiration, 
discovery, international standing, and economic benefits that such 
leadership brings.
    First, the draft bill would appear to shift the emphasis of NASA's 
core mission to human exploration. This is counter to the policy of 
NASA's organic Act, the National Aeronautics and Space Act of 1958, as 
well as to the policy statements of multiple NASA Authorizations that 
have seen NASA as a multi-mission agency with significant activities in 
science, aeronautics, and human spaceflight and exploration, and 
technology development.
    Another key concern is the level of funding that is authorized. The 
proposed bill would slash NASA's budget by almost a billion dollars 
relative to both the President's proposal for FY 14 and the pre-
sequester funding approved by Congress in FY 12, and it would maintain 
that cut over each of the years of the Majority's Authorization bill. 
The severe cuts to NASA's top line are manifested throughout the draft 
bill.
    For example, Earth Science would be cut by almost $650 million 
relative to the FY 14 request, meaning the Earth Science account is cut 
by 1/3.
    Cuts to Earth Science would not only result in gaps in the data 
needed to understand changes in our Earth system, it would also impact 
on the data needed for water monitoring, forest and timber productivity 
forecasting, improving gas and electric utilities load forecasting, and 
assessing the impact of sea level rise in coastal communities.
    These uses and societal benefits are exactly what we hope for when 
we make federal investments in research and technology. To stop them 
would not be responsible. And the bill appears to shift all Space 
Technology activities to support only exploration-related technology 
development.
    More importantly, the proposed reduction in funding for Space 
Technology will not keep NASA on a path aligned with 21st century 
innovation and job creation. Plans to pursue new technologies such as 
in-space propulsion and cryogenic fuel storage may suffer.
    The impact of making these reductions was not discussed in 
preceding hearings, as they should have been. Compounding things, the 
bill establishes aggressive milestones and activities that run contrary 
to proposed downsized levels.
    We cannot expect NASA to develop a sustainable and inspiring space 
program under these circumstances. Mr. Chairman, this Subcommittee has 
historically done best for NASA when we have moved legislation in a 
bipartisan manner.
    As a minimum, now that the draft bill is open for discussion and 
before we consider moving to markup, we should first take the time to 
hold other hearings with valued experts and stakeholders impacted by 
the draft bill's provisions, especially in areas such as Earth science, 
space technology, and commercial crew safety.
    As we will hear from one of the witnesses today, one way of 
counteracting the high cost of human space exploration may be in the 
form of expanded international partnerships. This is an idea that needs 
to be considered as the journey to Mars will be long, yet rewarding for 
the future of humankind.

    Chairman Palazzo. Thank you, Ms. Edwards.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point. Oh, I apologize, Ms. Johnson. Our Ranking Member is 
present. I now recognize the Ranking Member of the full 
Committee for her remarks.
    Ms. Johnson. Thank you very much, Mr. Chairman, and good 
morning, and I would like to join you in welcoming our 
witnesses to this morning's hearing. You both have offered 
valuable counsel to our Committee in the past, and I am certain 
that you will do that again today.
    As the Chairman has indicated, we are here today to begin 
our review of the Majority's discussion draft of the NASA 
Authorization Act of 2013. Those who know me know that I 
consider NASA to be a critical part of the Nation's innovation 
infrastructure, a driver of technological and scientific 
progress, a positive symbol of the United States throughout the 
world, and most importantly, a source of inspiration for 
successive generations of our young people. I strongly believe 
that any NASA authorization bill that comes out of this 
Committee should reflect these realities.
    Unfortunately, the draft bill that we are starting to 
examine today doesn't do that. It doesn't contain funding 
commensurate with the tasks NASA has been asked to undertake. 
In fact, it gives NASA additional unfunded mandates while 
maintaining deep sequestration cuts over the life of the bill. 
It contains policy direction that I fear will do long-term 
damage to the agency. And, I regret to say that if enacted, it 
would not help NASA meet the challenges facing the agency. In 
short, it is a missed opportunity to position NASA for 
excellence, and it is a bill that if enacted would lead to the 
erosion of the capabilities that have made NASA such a positive 
force for progress.
    Why do I say that? Well, I have already mentioned the deep 
and sustained cuts this bill makes to NASA's overall budget at 
a time when we should be investing more in NASA, not putting it 
on a path to mediocrity. It also cuts NASA's Earth Science 
budget by one-third, which I find very baffling. Certainly the 
Committee has held no hearings on NASA's Earth Science program 
in this Congress nor the 112th Congress, so it is hard to see 
any justification for those cuts. It makes equally damaging 
cuts and changes to NASA's Space Technology program, again 
without explanation. And despite on the one hand putting NASA's 
budget on a path of declining purchasing power for the 
foreseeable future, it on the other hand directs NASA to 
establish major new programs, not just goals, for sustained 
human presence on both the Moon and Mars.
    Moreover, in addition to imposing other unfunded and 
underfunded mandates on numerous NASA programs, it also sets an 
arbitrary deadline by when NASA will have had to carry out a 
successful commercial crew flight to the International Space 
Station, a deadline that I fear will lead to the kind of 
schedule pressure the Columbia Accident Investigation Board 
warned against a decade ago after the tragic loss of the Space 
Shuttle Columbia.
    Mr. Chairman, there are other areas of this draft 
legislation that I fundamentally disagree with, but I think you 
have a sense of my overall view. This is not a bill ready for 
markup. This is a flawed draft, starting from its funding 
assumptions, and I cannot support it in the present form. I can 
also predict that if passed by our Committee, this bill would 
be DOA in the Senate, DOA meaning dead on arrival.
    Rather than moving directly to an unproductive markup, I 
hope that the Majority will take a step back and at a minimum 
hold additional legislative hearings so we can hear from the 
affected parties what the impacts of the proposed cuts and 
changes to Earth Science and Space Technology will be. We also 
need to hear from the congressionally established Aerospace 
Safety Advisory Panel on its views of this legislation, because 
I know that no member of this Committee will want to do 
anything that would jeopardize safety.
    In closing, NASA is an investment in our future. The women 
and men who work at NASA are some of our best and brightest. We 
owe it to them and to our children and grandchildren to take 
the time to produce a NASA Authorization Act worthy of this 
Committee.
    I thank you, Mr. Chairman. I yield back the balance of my 
time.
    [The prepared statement of Ms. Johnson follows:]

  Prepared Statement of Committee Ranking Member Eddie Bernice Johnson

    Good morning. I'd like to join the Chairman in welcoming our 
witnesses to this morning's hearing. You both have provided valuable 
counsel to our Committee in the past, and I am certain that you will do 
so again today.
    As the Chairman has indicated, we are here today to begin our 
review of the Majority's Discussion Draft of the NASA Authorization Act 
of 2013. Those who know me know that I consider NASA to be a critical 
part of the nation's innovation infrastructure, a driver of 
technological and scientific progress, a positive symbol of the United 
States throughout the world, and most importantly, a source of 
inspiration for successive generations of our young people. I strongly 
believe that any NASA Authorization bill that comes out of this 
Committee should reflect those realities.
    Unfortunately, the draft bill that we are starting to examine today 
doesn't do that. It doesn't contain funding commensurate with the tasks 
NASA has been asked to undertake--in fact, it gives NASA additional 
unfunded mandates while maintaining deep sequestration cuts over the 
life of the bill. It contains policy direction that I fear will do long 
term damage to the agency. And, I regret to say that if enacted, it 
would not help NASA meet the challenges facing the agency. In short, it 
is a missed opportunity to position NASA for excellence, and it's a 
bill that if enacted would lead to the erosion of the capabilities that 
have made NASA such a positive force for progress.
    Why do I say that? Well, I have already mentioned the deep and 
sustained cuts this bill makes to NASA's overall budget--at a time when 
we should be investing more in NASA, not putting it on a path to 
mediocrity. It also cuts NASA's Earth Science budget by one-third, 
which I find baffling. Certainly the Committee has held no hearings on 
NASA's Earth Science program in this or the 112th Congress, so it's 
hard to see any justification for those cuts. It makes equally damaging 
cuts and changes to NASA's Space Technology program--again without 
explanation.
    And despite on the one hand putting NASA's budget on a path of 
declining purchasing power for the foreseeable future, it on the other 
hand directs NASA to establish major new programs--not just goals--for 
sustained human presences on both the Moon and Mars.
    Moreover, in addition to imposing other unfunded and underfunded 
mandates on numerous NASA programs, it also sets an arbitrary deadline 
by when NASA will have had to carry out a successful commercial crew 
flight to the International Space Station--a deadline that I fear will 
lead to the kind of schedule pressure the Columbia Accident 
Investigation Board warned against a decade ago after the tragic loss 
of the Space Shuttle Columbia.
    Mr. Chairman, there are other areas of the draft legislation that I 
fundamentally disagree with, but I think you have a sense of my overall 
view. This is not a bill ready for markup. This is a flawed draft, 
starting from its funding assumptions, and I cannot support it in its 
present form. I can also predict that if passed by our Committee, this 
bill would be DOA in the Senate.
    Rather than moving directly to an unproductive markup, I hope that 
the Majority will take a step back and at a minimum hold additional 
legislative hearings so we can hear from the affected parties what the 
impacts of the proposed cuts and changes to Earth Science and Space 
Technology will be. We also need to hear from the congressionally 
established Aerospace Safety Advisory Panel on its views of this 
legislation, because I know that no Member on this Committee will want 
to do anything that would jeopardize safety.
    In closing, NASA is an investment in our future. The women and men 
who work at NASA are some of our best and brightest. We owe it to them 
and to our children and grandchildren to take the time to produce a 
NASA Authorization Act worthy of this Committee.

    Chairman Palazzo. Thank you, Ms. Johnson. Again, the 
purpose of this Committee to hear our Members' concerns, issues 
and questions and also have some debate on those issues.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our panel of 
witnesses. Our first witness is Dr. Steven Squyres, the Goldwin 
Smith Professor of Astronomy at Cornell University, and Chair 
of the NASA Advisory Council. Our second witness is Mr. Thomas 
Young, former Executive Vice President of Lockheed Martin 
Corporation.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which Members of the Committee have 
five minutes each to ask questions. Your written testimony will 
be included in the record of the hearing.
    I now recognize our first witness, Dr. Squyres, for five 
minutes.

                  TESTIMONY OF STEVEN SQUYRES

             GOLDWIN SMITH PROFESSOR OF ASTRONOMY,

                       CORNELL UNIVERSITY

    Dr. Squyres. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to appear today.
    Three themes run through my testimony. First, NASA needs a 
clear and compelling long-term goal. In my opinion, that goal 
should be to send human explorers to Mars. Second, NASA is 
being asked to do too much with too little. Unless program 
content can be matched to budget, the result will be wasted 
effort and delay. Third, our Nation's civil space program will 
be best served by having high-level policies set by the 
Administration and Congress, and implementation details 
recommended by NASA engineers, scientists and managers.
    I recently testified at a hearing before this Committee 
entitled ``Next Steps in Human Exploration to Mars and 
Beyond.'' An underlying assumption of that hearing was that a 
crucial future goal for NASA should be to send human explorers 
to the surface of Mars. I argued then and I reiterate now that 
sending human explorers to Mars to learn whether or not life 
ever emerged there is a goal worthy of a great national space 
agency. It should be NASA's number one long-range priority.
    To make progress towards the goal, the draft Authorization 
Act wisely calls for NASA to develop a Mars human exploration 
roadmap, but then, with little technical justification, the 
draft legislation also dictates what some of the key elements 
of that roadmap should or should not be. Specifically, it 
directs NASA to establish a program to develop a sustained 
human presence on the moon and forbids NASA to fund the 
development of an Asteroid Retrieval Mission. I believe that it 
would be unwise for Congress to either prescribe or proscribe 
any key milestone in NASA's Mars exploration roadmap at this 
time. Personally, I agree with the draft Authorization Act's 
position on the Asteroid Retrieval Mission, and I disagree with 
its position on a sustained lunar presence, but my personal 
views are not the point.
    In the 1960s, the government set the high-level goal of 
sending humans to the Moon and then left it to the engineers 
and the scientists and managers of NASA to find the right 
program architecture to achieve this goal. I believe that a 
similar approach should be taken to achieving the goal of 
getting humans to Mars. I urge that milestones not be dictated 
either by the Administration or the Congress without allowing 
NASA to develop a technically sound roadmap first. The 
objective of this roadmap should be to achieve the goal of 
human exploration of Mars as quickly and efficiently as 
possible, and then once a viable roadmap has been generated, 
the additional technologies, vehicles and milestones that are 
needed to make it a reality will become clear.
    Moving on to Space Science, this program has been one of 
NASA's major success stories for many years. Priorities across 
the full sweep of Space Science have been recommended by the 
National Research Council's Decadal Surveys. I am pleased that 
the draft Authorization Act places particular emphasis on 
assuring that NASA's Space Science program follows decadal 
priorities.
    Unfortunately, tight budgets and mission cost overruns have 
put NASA's Space Science program under pressure. Recent 
Administration budget requests have funded most Space Science 
disciplines adequately but have included cuts to Planetary 
Exploration that were so deep as to appear punitive. The draft 
Authorization Act, in contrast, restores funding for Planetary 
Exploration but introduces alarmingly deep cuts to Earth 
Science. I feel it is important that cuts be driven by science 
priorities as outlined in the Decadal Surveys and that they be 
distributed sensibly across disciplines. So I urge this 
Committee to strive for balance in the Space Science portfolio 
rather than singling out Earth Science or any other discipline 
for disproportionate cuts.
    The draft Authorization Act would reorganize the Space 
Technology program by moving much of the responsibility for 
technology development to the Human Exploration and Operations 
Mission Directorate. Unfortunately, when budgets are tight, it 
is tempting for mission directorates to use technology funds to 
solve today's problems rather than enabling tomorrow's 
missions. So I favor a more distributed approach in which only 
technology funding for specific near- and medium-term needs of 
a mission directorate resides within that directorate. I feel 
that longer-term and more broadly applicable exploration 
technology funding is better maintained in a separate 
technology organization helping protect it from being used to 
solve immediate mission problems.
    Returning to my opening themes, I believe that the mismatch 
between the agency's aspirations and its budget is the most 
serious problem facing NASA. Unless a solution is found, some 
very hard choices may have to be made soon. Specifically, a 
choice is looming, I believe, regarding whether the focus of 
human spaceflight should be ISS utilization or moving beyond 
low-Earth orbit. At projected budget levels, I fear that NASA 
will not be able to do both of these safely and well.
    Part of the solution may be international partnerships. If 
no major funding increase for NASA is forthcoming, then I 
believe that the agency should aggressively seek out 
international partners for human exploration beyond low-Earth 
orbit. If capable partners who are willing to shoulder a 
substantial fraction of the cost of deep space exploration can 
be found, then it may be possible for NASA to maintain 
something like its current portfolio of activities. Otherwise I 
fear that a painful reduction in program content may lie ahead.
    Despite the challenges that it faces, NASA is one of our 
Nation's greatest assets and a source of pride for all 
Americans. An Authorization Act that enunciates a clear and 
compelling long-term goal for the agency, that matches program 
content to budget and that lets NASA formulate the 
implementation details of national civil space policy will 
allow it to remain so.
    Again, thank you for the opportunity to appear today.
    [The prepared statement of Dr. Squyres follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Palazzo. Thank you, Dr. Squyres.
    I now recognize our next witness, Mr. Young.

                 TESTIMONY OF A. THOMAS YOUNG,

                FORMER EXECUTIVE VICE PRESIDENT,

                  LOCKHEED MARTIN CORPORATION

    Mr. Young. Chairman Palazzo, Ms. Edwards and Committee 
Members, I am pleased to have the opportunity to present my 
views on issues I believe to be important as you prepare the 
NASA Authorization Act of 2013.
    The United States civil space program has been the source 
of enormous pride, prestige, knowledge and awe-inspiring 
technology. This has been the product of the exceptional men 
and women in NASA, other government agencies, industry and the 
scientific community working with highly competent leadership. 
This integrated effort is the foundation of the U.S. civil 
space program. As we move forward there are storm clouds over 
this great human endeavor that require attention.
    Nothing is more important than maintaining NASA as the 
premier civil space organization including maintaining the 
special capabilities of other government agencies, industry and 
the scientific community. This can only be achieved by having 
challenging, inspiring and worthy things to do. Studies, 
technology pursuits and overseeing others are important but 
will not maintain the civil space program as world class. We 
must endeavor to populate the Authorization Act with worthwhile 
opportunities that maintain these critical capabilities.
    To maximize the return from the investment in the civil 
space program requires that program content be in balance with 
the budget. This is a much discussed but seldom achieved goal. 
We continually operate with a budget that is inadequate to 
implement the established program. Our inability to delete 
worthy but lower-priority endeavors results in this imbalance. 
Too much program for the available budget results in 
inefficiencies, excessive risk and program cancellations. The 
result is that less is accomplished for more. Pay-as-you-go is 
a much-discussed concept that I believe has merit. Go-as-you-
pay is a useful concept when deciding the point at which the 
budget will support starting a project. Go-as-you-pay is a most 
wasteful concept for the implementation of a project.
    The dominant strategic issue facing the civil space program 
today is human spaceflight. Today, there is a human spaceflight 
program but no credible human space exploration strategy. There 
is much discussion about going to the Moon, an asteroid, 
Phobos, Deimos and Mars, however, there is no credible plan or 
budget. There are human exploration elements such as SLS and 
Orion.
    The NASA budget contains about $8 billion for human 
spaceflight, not including infrastructure costs. This funds the 
International Space Station, SLS, Orion, some technology, 
Commercial Cargo and Commercial Crew. If the budget remains 
approximately the same, my judgment is that there are two basic 
choices: a space station-focused human spaceflight program or 
an exploration-focused program. I do not believe the budget is 
adequate to accomplish both, and a choice needs to be made to 
have a credible path forward. I believe as a part of making 
this choice, an independent assessment of the value of the ISS 
return for the significant portion of the NASA budget that is 
dedicated to ISS is necessary. A senior review is a concept 
that is appropriate for conducting this assessment. If this 
human spaceflight strategy issue is not resolved, the graveyard 
of cancelled, abandoned and unachievable endeavors will 
continue to be populated. The responsibility for leading the 
resolution of this strategic issue should reside with NASA.
    Another strategic issue that is important resides in the 
science area of the NASA program. There are a small number of 
profound questions for which the United States is in a 
leadership position and is on the cusp of greatly increasing 
our knowledge. These include: Are we alone? What is dark energy 
and dark matter? What is the future of our climate? Is the 
United States going to be a leader in these profound areas or 
are we going to voluntarily move to the sidelines? Decadal 
Surveys have identified the top-priority programs in pursuing 
these special opportunities. Sample return from Mars, a wide-
field IR telescope and missions identified in the Earth Science 
Decadal deserve priority consideration in the new Authorization 
Act.
    Technology is important ``seed corn'' for the civil space 
program. A debate in any organization involving high-technology 
pursuits is: Should the technology be managed in a mission 
organization to maximize the relevance of the technology, or 
should the technology be managed in an independent organization 
to maximize the probability that the technology program will be 
implemented?
    The risk of the former is that the demands of implementing 
challenging projects will consume all the resources, thus 
sacrificing technology endeavors. The risk of the independent 
organization is the technology will be less relevant to NASA's 
missions and become an end in itself with scope beyond what is 
affordable. I believe the independent organization concept with 
a strong oversight process to assure maintaining relevance and 
responsibly containing scope of the endeavor is the best 
balance of merit and risk.
    The final topic I want to discuss in my prepared comments 
is leadership. I place my toe in these troubled waters with 
great reservation. However, I believe leadership of the civil 
space program is a topic that must be openly discussed. I 
strongly believe the leadership of the U.S. civil space program 
must be vested in NASA. This includes both formulation and 
implementation. Politics and ideology are a part of the fabric 
of a democracy, however, they should be relegated to lower-
level issues in the civil space program. I recognize that there 
are times when national issues are important factors, as was 
the case for Apollo, however, NASA has been and will be 
sensitive to such issues.
    NASA is about engineering, science, exploration and 
discovery. NASA really is rocket science in its broadest 
definition. Leadership of the civil space program must have the 
capabilities and experience consistent with this demanding 
charter. Today, leadership of the civil space program is 
diffuse and authority is invested in organizations, while 
important, that do not have the expertise to be in a 
controlling role. This is a prescription for mediocrity whether 
it be an organization of great national importance, an 
industrial corporation or a local community organization. I 
have great worry about what I believe to be a declining 
trajectory for NASA and the civil space program. I believe the 
most significant factor in this negative outlook is the adverse 
leadership concept I observe.
    As an example of what results from diffuse leadership with 
too much authority in the wrong places is the proposed Asteroid 
Retrieval Mission. This is a mission that is not worthy of a 
world-class space program that is focused upon maximizing the 
return that can be realized from a constrained budget. NASA 
must be returned to the leadership role of the civil space 
program. If this occurs, many of the issues confronting the 
program will be very positively addressed. If not, the outlook 
is discouraging.
    The Authorization Act of 2013 will be important in 
achieving a positive trajectory correction for NASA and the 
civil space program. It is hard to overstate the need for a 
program that is focused upon the highest-priority 
opportunities, a program that is consistent with available 
funding, and a program with leadership vested in NASA.
    Great nations do great things. The United States is a great 
Nation, and I continue to believe the civil space program is a 
great thing.
    Thank you very much.
    [The prepared statement of Mr. Young follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Palazzo. Thank you, Mr. Young. I thank the 
witnesses for being available for questioning today, reminding 
members that Committee rules limit questioning to five minutes. 
The Chair will at this point open the round of questions. The 
Chair recognizes himself for five minutes.
    One of the first questions I asked Administrator Bolden at 
our NASA budget hearing earlier this spring was whether the 
President's budget request would cause a slip in the schedule 
for the Space Launch System. Administrator Bolden replied that 
it would not. After looking at the budget request, however, it 
became apparent that if this was indeed true, the funding 
levels were barely enough. That is why the discussion draft 
before us calls for an increase of $70 million above the 
Administration's request.
    Mr. Young, what funding levels are necessary to maintain 
the current SLS schedule?
    Mr. Young. I really can't answer that question, but I do 
have some comments on the question. One of the things that is 
in the authorization bill and I pointed out is that go-as-you-
pay is a useful concept when you are deciding when to start a 
project, but when you are implementing a project, it is a most 
wasteful concept, and I think if SLS falls into the mode of a 
go-as-you-pay program, then it is going to be highly 
inefficiently implemented, and what really happens in a go-as-
you-pay concept when you are implementing a program is, good 
people accomplish all the work in a given Fiscal Year that they 
can for the money that is available. What they can't 
accomplish, they move to the right, and this accumulates into 
schedule delays but it is even more significant that you don't 
accomplish the program in the most efficient manner and you 
probably end up with a lot of programs doing one program for 
the price of two. So I applaud your focus on this issue of 
assuring that the SLS funding is appropriate to implement a 
program in the most efficient manner. I am just not in a 
position to make judgment of exactly what those dollars are.
    Chairman Palazzo. Dr. Squyres, do you have anything to add?
    Dr. Squyres. Yeah, I think the thing I would add to this, 
and I have mentioned this to this Committee in the past, is 
that the real issue to me is not when the first flight of SLS 
takes place, it is the flight rate thereafter. And if you look 
at the projected budget and what it implies in terms of the 
projected flight rate for SLS, you wind up with a flight rate 
that is almost an order of magnitude lower than what was done 
for, say, the Saturn V system back in the 1960s and early 
1970s. We have no experience with a human-rated flight system 
that only flies every two or three or four years, and I believe 
that is cause for serious concern. It is not just simply a 
matter of maintaining program momentum. It is not even purely a 
matter of efficiency. It is also largely a matter of just 
keeping the flight team sharp and safe and mission-ready. So I 
am deeply concerned about the flight rate of that system.
    Chairman Palazzo. Can NASA afford to develop the 130-
metric-ton variant right now or will it have to focus on the 
70-ton version? Does anybody want to--no comments on that? We 
will work that one out later. It keeps popping in my mind. Now, 
this is something I think you all can elaborate on. Now, the 
discussion draft includes the requirement that NASA build a 
Mars human exploration roadmap. Are there any additional 
requirements for the roadmap that you think should be added? 
Dr. Squyres?
    Dr. Squyres. Actually, I think the roadmap requirements in 
the bill are overconstrained. What I mean by that, I think the 
idea of establishing a roadmap for human exploration to Mars is 
great. It is one of my favorite provisions in this bill. But I 
think it would be best to allow NASA to do that, to work out 
that roadmap and its technical details and find the best way to 
achieve that and then come back with a set of recommendations 
of what the intermediate milestones should be. As written, the 
bill prescribes certain milestones, for example, sustained 
presence on the surface of the Moon, which as the Ranking 
Minority Member of the full Committee noted is an unfunded 
mandate. It also says that we should not do certain things 
along the way. I think, and I agree with Tom on this, that 
allowing NASA to take the first steps towards establishing what 
the roadmap should be using the technical expertise that 
resides within the agency would be an appropriate way to go 
forward.
    Mr. Young. I too applaud the roadmap. I mean, I think we 
are badly in need of a human exploration strategy. I think that 
the concept of doing the roadmap, NASA leading it, is good, 
giving NASA as much flexibility as can be and putting together 
is also good. You will always have an opportunity to critique 
the products as they come out. The only thing I would add to 
what Steve has said is that it is also got to be a roadmap that 
gives appropriate recognition to budget, and what is realistic 
and what is not realistic, and I don't mean to overconstrain 
you by that because if I had the job, I would look at options 
and various levels to understand what we can do, you know, at 
various levels. But a strategy without the resources to execute 
the strategy or a roadmap without the resources to execute it 
is simply a hope as opposed to something that is realistic. So 
we have got to put it in the context of what is realistic to be 
implemented. But personally, it is the objective--I was sitting 
thinking as Steve was doing his testimony, I don't know how 
long I have been associated with Mars but I almost have three 
children: Carter, Blair and Mars.
    Chairman Palazzo. Thank you for your comments. I now 
recognize Ms. Edwards for five minutes.
    Ms. Edwards. Thank you, Dr. Squyres and Mr. Young. It is 
always good to have you here, and I just really appreciate the 
value that you provide for the Committee. As I read your 
testimony and listened to you today, what I heard is that I 
think we actually can agree on some of the broad concepts of 
the bill including identifying a roadmap to Mars as we just 
discussed, maintaining a balanced and steady agenda for NASA's 
programs as a multi-mission agency, and taking a look at how we 
can assure the effectiveness of the agency's leadership in 
maintaining a long-term vision. But there are some aspects of 
the draft bill that I think are really problematic, and I 
wonder if you could discuss with some level of detail--and Dr. 
Squyres, you did, but Mr. Young, I wonder if we could have a 
comment from you about this idea of a sustained presence on the 
Moon and Mars. Because there is where I do think that there is, 
you know, some significant division in the details, and I 
wonder if you might comment as well about some of the things 
that we could ask for in a roadmap and a timetable that would 
allow us a Committee to look at what NASA is doing and ask 
those questions in detail without prescribing the scientific 
detail for the agency.
    Mr. Young. The comment I would make on the Moon question 
that you have is the following. I do not believe that landing 
on the Moon or operations on the Moon is a prerequisite to 
going to Mars. So if Mars--you know, given Mars as the focus, 
then it is not necessary? And it is probably a significant 
resource consumer that will take away from the time and the 
effort to go to Mars.
    I also don't want to imply that the Moon is a useless 
location, and so that is not, from my standpoint, meant to be 
implied at all. I mean, I think there is enormous, you know, 
research, understanding and benefit that can be derived from a 
mission to the lunar surface. I just think that if our focus is 
on Mars, it is not a necessary prerequisite and it is an 
enormous consumer of resources including time, and it really 
takes away from the basic thrust of a Mars roadmap.
    Ms. Edwards. Dr. Squyres?
    Dr. Squyres. Well, I certainly agree with Tom that the 
reason to go to the surface of the Moon is not to help us get 
to Mars; it is to go to the Moon. With respect to what you 
could ask for in a roadmap, certainly asking what are the 
appropriate technologies is the right thing to do, certainly 
asking what vehicles, what specific pieces of hardware are 
appropriate to get the job done, and then I think there are a 
range of different milestones that could be looked at. Clearly, 
lunar orbit is a sensible first milestone. Whether there is a 
rock there that has been directed from, you know, an asteroid 
that has been brought in or not, it is the right place to go. 
The other milestones you could look at include the lunar 
surface. They include a near-Earth object of significant size. 
They include the moons of Mars, Phobos and Deimos. They include 
operations in Mars orbit, which is clearly going to be 
necessary.
    So I think you could lay out the range of possible 
milestones and ask the agency, okay, with these possibilities, 
what are the right ones that will get us most efficiently to 
the long-term goal, and then what are the specific 
technologies, what are the specific pieces of hardware that are 
necessary, and one other thing that I would add is that I think 
it would be valuable to ask the agency and more broadly ask the 
question, once we have identified the vehicles, once we have 
identified the technologies, are there ones in there that could 
be sensibly provided by an international partner to help spread 
the costs.
    Ms. Edwards. Thank you very much, because I think that 
would help us actually develop an authorization that would be 
useful to the agency without us, as lawmakers without the 
requisite experience, pointing out the details of what it is 
that the agency should do. So I appreciate that.
    I want to ask you very quickly, both of you, the draft bill 
proposes to make drastic cuts in NASA's Earth Science program 
at a time when natural disasters here at home in the United 
States and abroad are wreaking havoc on individuals, 
businesses, municipalities, the entire economic system, and so 
I wonder if you could share with me what you think the proposed 
cuts in the legislation mean to our ability to understand, 
predict, monitor and respond to natural disasters and to 
climate change.
    Dr. Squyres. I am deeply concerned about the magnitude of 
the proposed cuts to Earth Science, just as I was deeply 
concerned about the magnitude of the proposed cuts to Planetary 
Science in the Administration budget. There needs to be a 
balance found. There needs to be a compromise found in which 
the cuts if they have to be directed to Space Science are 
spread more sensibly across the different disciplines.
    With respect to Earth Science, the National Research 
Council's Decadal Survey for Earth Science has very nicely 
spelled out a sequence of missions, a series of activities that 
could be conducted by NASA studying the Earth from space and 
those have broad benefits both in the specific areas that 
benefit humans that you outlined but also just across the broad 
sweep of understanding the Earth as a complex system. The 
climate system, the geology of the Earth, the oceans, the sea 
ice, all of this are interconnected in a very complex way, and 
these missions are necessary to understand that system, and 
there are unexpected discoveries awaiting. There are unexpected 
consequences of flying these missions, and----
    Ms. Edwards. Thank you. I appreciate that. I think I am 
actually out of time, so we will let somebody else continue.
    Dr. Squyres. I could go on on that one for a long time.
    Ms. Edwards. I know that you could. I apologize. I have to 
slip out for a bit but I will be back.
    Chairman Palazzo. And we could listen for a long time. I 
would like to say this bill does not require NASA to establish 
a Moon base or lunar outpost. In fact, the 2005 and 2008 NASA 
Reauthorization Acts required NASA to establish a sustained 
human presence on the Moon and authorized NASA to establish a 
lunar base. This bill authorizes NASA to continue those 
pursuits already in existing law and to plan for eventual 
missions to Mars. So if there was any confusion, I want to 
clear that up.
    I now recognize Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    By way of background, I represent Alabama's 5th 
congressional district, the home of the Marshall Space Flight 
Center, and quite frankly, the birthplace of America's human 
spaceflight program. The Marshall Space Flight community plays 
a pivotal role in the development of America's Space Launch 
System, the next-generation rocket system that empowers America 
to return to exceptionalism in space and stop the current 
rather humiliating situation wherein America is reduced to 
having our astronauts thumb rides with the Russians.
    The people in my district who either have a keen interest 
in SLS or who are responsible for building the next-generation 
SLS rocket system have had scant time to review the draft NASA 
Authorization Act of 2013. The early response, however, to 
these reviews have been, to put it mildly, most disconcerting, 
so disconcerting, in fact, that unless I receive differing 
expertise that satisfies me that our words and support of human 
spaceflight match our actions and deeds, I will have no choice 
but to vote against and otherwise oppose this Authorization 
Act.
    In that vein, I seek today's witnesses' expertise and 
insight in hopes that it will help satisfy these concerns. Page 
5 of the draft discussion bill states, ``$1.454 billion shall 
be for the Space Launch System.'' Have either of you had 
communications with any private-sector contractor who is 
responsible for building the next-generation SLS rocket to 
determine whether they can meet their 2017 launch deadline if 
they are authorized only $1.4 billion in FY 2014? And if so, 
who have you spoken with, what have they said? Mr. Young, have 
you?
    Mr. Young. I have not.
    Mr. Brooks. Dr. Squyres, have you?
    Dr. Squyres. No, I have not.
    Mr. Brooks. In that vein, let me share with you some of the 
concerns that I have had shared with me from folks in my 
district. The first one is a gentleman that I am sure you are 
very familiar with. I have a letter from former NASA 
Administrator Mike Griffin dated today, June 19, 2013, at 6:11 
a.m. He is doing this while he is at the Paris air show in 
Europe. Dr. Griffin states in part, and I quote, ``I wish to 
express my concern over the proposal to authorize 2014 funding 
for the Space Launch System at a level of $1.45 billion. It is 
not adequate to develop the launch system that was approved by 
the Congress in the NASA Authorization Act of 2010. Development 
of the SLS that was mandated by the Congress requires a 2014 
authorization and appropriation of $1.8 billion.'' I repeat 
that: $1.8 billion. ``Specific requirements which cannot be met 
at this level,'' cannot be met at this level of $1.45 billion, 
``include, one, concurrent development of the upper stage 
required to meet the 130-metric-ton floor for human exploration 
capability that was mandated by the 2010 Authorization Act; 
two, schedule protection for completion of core vehicle 
development by 2017, again, a requirement of the 2010 Act; 
three, completion of the interim cryogenic propulsion stage by 
2017 necessary to reach the initially planned SLS capability of 
70-metric-tons; four, continuation of advanced booster 
development.''
    I also have a much more candid, and I have excised parts of 
it for family consumption, communication from a former well-
respected NASA employee. This person states, ``I have reviewed 
the draft authorization bill. I really seized up over the 
amount for SLS. It is too low. I have been talking for months 
now with the principals on the program on just this point, and 
the money they need to have a healthy program is $1.8 billion 
to the project manager for the rocket, not money to JSC, 
Johnson Space Center, for Orion, not money to Kennedy Space 
Center for ground facilities. These latter things are good to 
do, no question, but without the launch vehicle itself, they 
are irrelevant. As important as building the rocket is building 
the right rocket, the 130-metric-ton version, not the half-
capable 70-metric-ton first step that Lori Garver and the 
Obamas want to settle for. That version is quintessential white 
elephant. It is twice as big as what you need to get to low 
orbit to service the International Space Station, and thus very 
inefficient for that application, and half what you need for 
human space exploration and thus inefficient for that 
application as well.''
    Mr. Chairman, I urge this Subcommittee conduct as many 
hearings as are necessary to determine whether $1.4 billion is 
adequate to construct the Space Launch System rocket and 
restore America's exploration in space as scheduled or is 
merely a painkiller given to a terminal patient to ease the 
cause of death. That having been said, with respect to these 
two communications, do you all have any reaction?
    Mr. Young. I do. Mike Griffin, that was probably in his 
afternoon work even though you had it at 6 a.m. Yeah, my 
comment is the following. We actually know how to estimate the 
cost of these programs, not with great precision but within, 
you know, the realm of what is necessary for budgeting, and so 
this is really an example of some of the things I was talking 
about and have testified before previously. We have the ability 
based on experience to do a reasonably credible cost estimate 
for projects like SLS. We can do it in a statistical manner, 
and we know that for a standalone project, the most probable 
result is the 80/20 statistical number, a lot of history on 
that. I mean, I have looked at NRO data, I looked at NASA data, 
Air Force data, as others have, and that is the point at which 
you determine the most probable cost of a program. The next 
more important item is that the 80/20 not just be a total but 
it be 80/20 every year, because if I put all of my reserve and 
contingency into the program, I may feel good about the total 
but I have done nothing, which is probably what these letters 
are implying.
    So my recommendation or comment to you would be, get a 
credible organization who knows how to do independent cost 
estimating and get them to do an independent cost estimate for 
the SLS given the launch date that you want to specify and they 
can assess the realism of that and they do it at an 80/20 level 
and then you can really assess where the budget is relative to 
the reality as to what the program would cost. But I want to 
emphasize, we know how to do this. This is something that we 
really have developed a real capability for in the recent 
times.
    Chairman Palazzo. Thank you, Mr. Young. Dr. Squyres, out of 
consideration for the other members that are here, I would like 
to ask the members again to try to keep their questions and 
comments to five minutes.
    I now recognize Mr. Kennedy for five minutes.
    Mr. Kennedy. Thank you, Mr. Chair, and thank you once again 
to our witnesses for testifying yet again before the Committee. 
A couple of questions to broaden the base a little bit here.
    For both of you, just to start, you mentioned in the 
Administration's--you each mentioned this, the Administration's 
STEM education reorganization proposal as an issue moving 
forward. In my district back home in Massachusetts, we have a 
number of programs that have been highly successful in reaching 
students of all ages and getting them interested in STEM 
fields. I share some of your concerns about potentially 
reorganizing these programs and losing the expertise of issue 
area specialists. I visited at some vocational schools that 
have amazing partnerships with NASA in getting kids really 
excited about fields of engineering and exploration, and I 
think we can all agree that increasing the effectiveness and 
efficiency for Federal STEM efforts is something worth 
pursuing. Do you have any recommendations or any suggestions on 
how NASA can improve its education and outreach priorities 
going forward?
    Dr. Squyres. I believe that the Administration's proposed 
reorganization of STEM education at NASA is deeply misguided. 
NASA is a unique organization within the government. It flies 
missions into space, and the technical audacity of those 
missions and their capability to inspire are virtually 
unmatched in terms of what this government does and its ability 
to get young people turned on by science, by technology. And to 
take that responsibility, the responsibility for sharing that 
capability with the public away from NASA and give it to, I 
don't care, any organization that doesn't do spaceflight I 
think is a bad idea. The thing that makes NASA's education 
outreach programs as effective as they are is that they are 
conducted by people who have not only a deep knowledge about 
what they are doing but a passion for sharing it. And you 
listen to some of NASA's scientists and engineers talk with 
young people about how excited they are about what we get to do 
for a living. You know, this is compelling stuff, and to take 
that away from the agency and hand it off to an organization 
that has no experience flying stuff in space I think is just a 
bad mistake.
    Mr. Kennedy. Fair enough. Anything you want to add sir? No? 
Great.
    Then moving on, I would like to hear a little bit more 
about your thoughts on the Space Technology provisions of the 
bill. As I understand it, authorization levels included in the 
draft are obviously much lower, and the program would need to 
be adjusted to support exploration-related technology 
development by moving much of the funding to support the Human 
Exploration and Operations of Mission Directorate. How do you 
think this would impact the future development of space 
technology?
    Mr. Young. The thing I commented on is not so much the 
level of the program, because that is important, but it is very 
difficult for someone in our position to have gone through all 
the activities. But having been involved both in NASA and in 
the private sector for a long time, both operational missions 
and technology, the thing that has always struck me is that 
there is a constant debate, and that is, there is a motivation 
to try to align the technology with the management of the 
missions or the projects because that really makes it most 
relevant. I mean, no question, they are the users. The problem 
is when the crunch comes, and it always comes, the resources 
that are there for the technology gets used to solve problems 
on the missions that you are trying to execute, and I don't 
offer that as being wrong. I mean, that is the priorities that 
people have to take.
    The other side of it is, if you put technology in a 
technology organization, there are some dangers there too 
because then the technology kind of creeps away from being as 
relevant as you want it to be. It falls more in the paradigm of 
building the technology budget as opposed to the overall 
balance of the activities, and it can kind of become an end in 
itself, as I commented.
    So you have really got those two situations. There is not 
an optimum solution. Having watched it, lived it, seen the 
merits and the problems with it over time, I favor putting it 
in an independent organization, however, with a strong 
oversight capability----
    Mr. Kennedy. Sir, if I could----
    Mr. Young. --to assure relevance and to assure that it 
doesn't get out of control. The NRC or the Academies is a great 
oversight kind of an organization.
    Mr. Kennedy. I have got three seconds, but briefly, you 
both commented on the Asteroid Retrieval Mission. I seem to 
sense some skepticism from both of you on that mission. Are 
there other technological advances, are there gains that can be 
made if our overall goal, NASA's goal, is getting to Mars, that 
benefit from the Asteroid Retrieval Mission? And if you can, 
answer it in less than 10 seconds.
    Dr. Squyres. I personally don't see a strong connection 
between the proposed Asteroid Retrieval Mission and sending 
humans to Mars, but I believe NASA should at least be given the 
opportunity to try to make that case. I haven't heard it yet.
    Mr. Young. My belief is that any technology that comes out 
of it, there are better ways to do it, and I am passionate as 
you go forward with the Authorization Act to utilize whatever 
resources are available on the highest-priority endeavors, and 
my judgment is, this is not a highest-priority endeavor.
    Mr. Kennedy. Thank you both, and thank you, Mr. Chair, for 
the flexibility.
    Chairman Palazzo. Thank you, Mr. Kennedy. I now recognize 
Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. We just 
heard from my colleague from Alabama that the SLS project needs 
to be funded, and Mr. Young, the people he was quoting are the 
people who know how to do these numbers, Mr. Griffin and the 
rest of them. They build the rockets down in his district and 
they say for this project to be sustainable and to meet the 
deadlines that we are doing, and that costs a lot more in the 
long run, as you pointed out, that we are going to need to 
spend $1.8 billion rather than what is being authorized, which 
is 1.4. It seems to me that that should be a warning sign for 
all of us that this project is going to cost a lot more money 
and that money has got to come from somewhere. The tooth fairy 
isn't going to leave it under our pillow, and all of this talk, 
we were talking about these other things that NASA does like 
whether it is inspire young people or whatever it is that NASA 
wants to do, that is going to suffer and it is going to go into 
this rocket, or the SLS Titanic, as I like to describe it, but 
this huge, massive rocket that our other witness, Mr. Young, 
has already stated he has studied and it has only got one or 
two uses that we are going to have out of that rocket.
    Doesn't this mean that--frankly, I differ from my colleague 
from Alabama. I think all of this adds up to, we are on the 
wrong course and we should just get away, cancel this project. 
It is not sustainable and will drain money from every other 
thing that we want to do in space eventually, and worst of all, 
it may end up being canceled, as you pointed out so many times, 
Mr. Young. In the past, we have seen so many of these canceled 
after spending billions and billions of dollars right down the 
toilet.
    I would like to ask Mr. Squyres, you have stated and we all 
seem to assume that getting to Mars as soon as possible has got 
to be our ultimate goal. That just seems to me that everybody 
is accepting that. I don't accept that. There are a lot of 
other things we need to do in space before we need to get to 
Mars. But Mr. Squyres, do you believe that this massive rocket 
project that you seem to be skeptical about as well, is that a 
prerequisite to going to Mars?
    Dr. Squyres. Certainly, some kind of heavy lift capability 
is a prerequisite to get to Mars. Mars is far away. But SLS--I 
said in my opening statement that I believe that the biggest 
challenge, the biggest problem facing the agency is that NASA 
is being asked to do too much with too little, and this 
mismatch between the amount of money that is necessary to do 
SLS right and the amount of money that is actually available is 
symptomatic of that. Both Tom and I in our opening remarks 
pointed out that we see some tough choices looming in the area 
of human spaceflight. We can afford to utilize the Space 
Station, which we have invested so much in, for as long as its 
operational lifetime. We can afford to develop SLS and to do it 
on a safe and reasonable schedule, but I don't see that we can 
do both, and so there may be some very tough challenges ahead 
for this agency and some choices to be made.
    Mr. Rohrabacher. There are other alternatives that are out 
there, and we do have a proven rocket system right now. We have 
people who have done a good job at producing Deltas and Atlas 
rockets that are very effective and very safe, and perhaps 
those systems can be used perhaps combined with a refueling 
system of some kind rather than spending the tens of billions 
of dollars that we are going to spend to have this one large 
system that seems to have one purpose.
    Let me just note this. It was noted earlier how important 
human spaceflight is, and I agree that it is important that we 
do that, but NASA isn't the only one in this ballgame. There 
are two other programs that I know that are aimed at putting 
people into space, and it is not costing us the big bucks from 
NASA to keep people in space. I mean, we have got Dennis Tito 
out there and I happen to think that his project will inspire a 
lot of people. When you are talking about inspiring humankind 
and especially young people, I think Dennis' concept of sending 
a man and a woman around Mars, that is going to capture 
everybody's imagination. Let us hope he is successful, however.
    And the other thing is SpaceX, of course, and others are 
putting money into developing a system much cheaper than what 
we are talking about here of putting people into space in turn 
for a number of purposes, one, to go to the Space Station, so 
we won't have to hitch a ride with the Russians. So when we 
look at this budget, we are going to be looking at these 
budgets, Mr. Chairman, and you are going to be looking at this 
budget--I don't know how much longer I am going to be around--
but you are going to be around a long time and you are going to 
remember when we started this program and in the end, you are 
going to have to live through all of the cuts of everything 
else that we are going to have to cut to keep this giant rocket 
program going. There are other alternatives I think we should 
be looking at seriously. Thank you very much, Mr. Chairman.
    Chairman Palazzo. Thank you, Mr. Rohrabacher. I now 
recognize Ms. Wilson--or we will go to Mr. Veasey.
    Mr. Veasey. Mr. Chairman, thank you very much, and I wanted 
to ask Dr. Squyres and Mr. Young a specific question about the 
ISS program. I know there has been a lot of comment on the 
intrinsic value and strength of the international partnership 
that the ISS program has engendered over the decades since the 
partnership was established, and what I wanted to know 
specifically from you is, how important is it to build on the 
ISS partnership in future human exploration endeavors?
    Dr. Squyres. I think it is tremendously important. ISS is a 
technological marvel but it is also a management marvel. To 
have had that many nations work together so effectively to 
build such a magnificent piece of hardware, it is unparalleled 
I think certainly in the history of space exploration. And the 
International Space Station truly is international to a deep, 
penetrating degree. The entire system is deeply international 
and that is manifested in a whole bunch of different ways. I 
believe very strongly that in order for NASA to find a way to 
deal with the level of over-commitment that is expected of the 
agency, for NASA to be able to do the things out in deep space 
that we would like to see happen with anything like the budgets 
that we are talking about here, there has to be a really 
substantial international component to that. And so I think 
building on the partnerships that have been really established 
so effectively in the management of the International Space 
Station, it has really been a triumph, and I think trying to 
take that capability and extend it beyond low-Earth orbit is 
probably going to be absolutely necessary.
    Mr. Young. I really don't have anything to add. I think 
that is exactly right. I mean, you know, the international 
relationship aspect of it, it is hard to imagine anything more 
successful than the Space Station has been in that regard, and 
building on that and doing whatever the next major thing we 
encounter or we undertake I think is extraordinarily important.
    Dr. Squyres. If I could just add one more thing to my 
remarks on that, and that is that if international partnerships 
are going to be a key element of our roadmap for exploration of 
deep space, it would make sense to involve our potential 
international partners in the development of that roadmap so 
that they have a sense of ownership of it.
    Mr. Veasey. What would be the impact of disrupting the 
partnership without a follow-on program?
    Mr. Young. It is a good question. It is kind of the nature 
of the business, I mean, you know, to have continuity is 
certainly a virtue but I would not make it a requirement. In 
other words, I think that, you know, we should collectively 
figure out the most important things to do and then how is the 
most effective way to execute them rather than say we have a 
workforce and we have an international partnership and now we 
have got to fill that international partnership. I don't know 
if that is very helpful, but that would be my general reaction.
    Mr. Veasey. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Chairman Palazzo. Thank you, Mr. Veasey. I now recognize 
Mr. Posey.
    Mr. Posey. Thank you very much, Mr. Chairman, and I thank 
both the witnesses, and if I heard you correctly, both of you 
place a high priority on human space exploration as being the 
number one thing that we should be doing. If we started today, 
how long do each of you estimate it would be before we could 
place a person on Mars?
    Dr. Squyres. With the current budget?
    Mr. Posey. Yes. Well, we can do it for starters. Give me a 
date with the current budget and a date with the Apollo-era 
budget.
    Mr. Young. With the current budget, bear with me, I would 
probably say never.
    Dr. Squyres. I agree.
    Mr. Young. If you said, if we made this a national 
imperative, you know, to go do it, it took Apollo about eight 
years, if I recall correctly. I was around doing much of that 
activity, and, I mean, it was truly a national endeavor. Mars 
is harder. There are a lot of significant issues to resolve 
before going to Mars, but I think if we had the same national 
commitment to it, I would say 2025 we could land on Mars and 
return home safely to Earth.
    Mr. Posey. During Apollo, you were around and I was around, 
and that was done in ten years. I am told they could not repeat 
that performance today. I don't know whether it is true or not. 
And if you recall, that is when they carried around slide 
rules. The IBM mainframe was a quarter as big as this room and 
did about what you can get a little calculator to do for five 
bucks at Walmart today. It is amazing. It seems like we have 
regressed somewhat in some of our abilities.
    Mr. Young. Can I comment on that?
    Mr. Posey. Certainly.
    Mr. Young. I know I am eating into your time. It really 
builds on some of what I think it is important in this 
Authorization Act.
    I actually think we could repeat that if we managed the 
enterprise today the way we managed it then, and I knew the 
leaders who were doing that, and we invested the authority and 
responsibility in the people executing the program the way we 
did it then. So I am not distressed so much that we don't have 
the raw material capability; I am distressed that we have a 
management process, oversight process, et cetera that 
complicates the world.
    Mr. Posey. Thank you. And we don't seem to have--I mean, we 
have seen polling, and I keep copies of it, 76 percent of the 
people thought the Shuttle was a good program, to some people 
today, a more recent poll, they rate their dislike of space 
funding next only to welfare, and that is not a good position 
for us to be in. I mean, it would be great if we could have--
what is it--the Rice University speech the President gave: why 
go to the Moon. You know, if more of us could hear that kind of 
thing in this day and time and inspire a little bit more.
    The President projects 2030, a quarter of a century from 
now, is when we could get to Mars, and the question is, do you 
think we could maintain the public's interest, if we even have 
it now, to take a generation to complete a mission, do you 
think without shorter, more precise, more exciting stepping 
stones?
    Dr. Squyres. Well, I think that a necessary part, probably 
not sufficient, but a necessary part of maintaining public 
interest is in fact a focus on Mars. When the Curiosity rover 
landed on Mars recently, thousands of people showed up in the 
middle of the night in Times Square to watch it on television. 
People are actually captivated by Mars exploration. So I 
believe the focus on Mars is necessary. I am not sure that it 
is sufficient, and so as you say, the time scales are 
substantial and so I think having some compelling milestones 
along the way is an important part of the program as well.
    I believe, and Tom and I, I think, are very of like mind on 
this, that it should be first and foremost left to engineers 
and scientists and managers at NASA to come up with the 
technically appropriate set of milestones, the ones that get us 
to the goal safely and efficiently, and then to have those 
reviewed carefully, both by organizations like the National 
Academy but also of course by the Congress and the 
Administration to make sure that they make sense in terms of 
maintaining the program.
    Mr. Posey. And I concur. You know, you just--we say on the 
one hand we need to have priorities. Then people say well, you 
need to balance your spending, you need to balance your 
spending, and I am just afraid we are going to end up making 
NASA a jack-of-all-trades and a master of none, and you are 
shaking your heads ``yes.'' You have the same fears. Thank you.
    Mr. Young. Yeah, I am going to cheat, if I might. I think 
the other aspect of the milestones is, don't forget about the 
robotic program and the excitement that will go along with 
return of samples from Mars robotically, which I think a 
necessary prerequisite for the human program, and the idea of 
having a rover going out and collecting that sample and storing 
it somewhere where a vehicle is going to come along a few years 
later and pick it up and return it, I think you can build a lot 
of excitement around it.
    And as long as I have cheated a little bit, you will 
remember Aaron Cohen, and Aaron told me one time--who was 
significant in the Apollo program. When we were talking about 
the Constellation program, he said we are about to find out how 
hard it really was to go to the Moon.
    Mr. Posey. Thank you, gentlemen. Thank you very much. Thank 
you, Mr. Chairman.
    Chairman Palazzo. Thank you, Mr. Posey. I now recognize Ms. 
Bonamici.
    Ms. Bonamici. Thank you very much, Mr. Chairman. Thank you 
both for being here today and bringing your expertise.
    I just want to start by following up on Mr. Kennedy's 
remarks about the importance of STEM education. I just came 
from the Education Committee, where we are marking up a bill, 
and a lot of discussion about STEM education, and I just share 
the concern of making sure that we are engaging the next 
generation. I do want to note that NASA recently selected its 
trainees to become astronauts, and half of them are women. I 
think that is the first time that that has happened. We want to 
make sure that we have the next generation of astronauts and 
scientists and people who are interested in these fields. So I 
am very concerned about whether we are going to be through 
restructuring affecting those existing partnerships between 
NASA and other education groups and entities. So I want to 
share that concern, and I know you have commented on it.
    I also want to bring up another thing. You know, many of us 
on the Committee do not have NASA facilities in our districts. 
We might have involvement with programs like human spaceflight 
and missions to Mars just through subcontractors or others in 
the supply chain. But NASA has historically been a multi-
mission agency with a balanced portfolio in human exploration, 
human spaceflight, science and aeronautics, and I know we are 
having conversations about whether those priorities should 
change, but because of that multi-mission history, I often 
discuss the importance of NASA's other missions including the 
Earth Science mission, and I know Representative Edwards 
brought this up. I am the Ranking Member on the Environment 
Subcommittee. I know the chairman was here. And the Environment 
Subcommittee has jurisdiction over NASA Earth Science programs, 
so cuts to those programs cause me some serious concern.
    There is some significant national activity such as weather 
monitoring. Oregon State University, for example, receives 
funding through this program and the work that they do helps in 
that area. And according to the National Academies, NASA's 
aging Earth Observation System threatens a disruption in 
information that can help detect long-term climate trends that 
contribute to severe weather patterns. That affects not only 
space exploration but a lot of other issues as well.
    So can you discuss the Authorization Act's reduction in 
funding for the Earth Science programs, for NASA's Earth 
Science programs? What impact might that have on long-term 
weather and climate forecasting, both within NASA and other 
agencies, and how important is that work to space exploration?
    Dr. Squyres. Well, as I remarked in my opening comments, I 
view with considerable concern the deep cuts to Earth Science 
that are contained in the proposed Authorization Act. It is 
clear that the Administration and the Congress have, at least 
as Congress' views are expressed in this draft Act, very 
different views of how to allocate money within the Space 
Science enterprise at NASA. And on the Administration's side, I 
have seen what I view to be alarmingly deep cuts in Planetary 
Exploration which has been, I think, one of NASA's real shining 
successes in recent years. In this bill, the pendulum swings 
too far in the other direction, in my view, and has alarmingly 
deep cuts to Earth Science. If it is going to--if we are going 
to see a NASA budget, if we are going to see an authorization 
level that is consistent with sequestration sorts of budgets, 
clearly some tough choices have to be made. But rather than 
singling out any one scientific discipline for disproportionate 
cuts, which is what I am seeing on both sides right now, having 
those cuts sort of sensibly distributed across the Space 
Science enterprise I think makes more sense. It is going to 
fall on committees like this to come up with some compromises, 
and I urge you to try to do that.
    To get specifically to your question, if you look at the 
suite of missions that were recommended by the Earth Sciences 
Decadal Survey from the National Academies, they would focus on 
understanding the Earth as a system, not just focusing on 
trying to forecast tomorrow's weather but trying to really 
understand the Earth's climate system, the Earth geosciences, 
to really try to develop a systems approach to understanding 
the Earth. And that is inevitably going to pay off in providing 
decision makers who are wrestling with things like climate 
change with the kinds of information that would be necessary to 
make smart decisions.
    Ms. Bonamici. Mr. Young, you are nodding your head.
    Mr. Young. Yes.
    Ms. Bonamici. Thank you very much. I see my time is 
expired. I yield back. Thank you, Mr. Chairman.
    Chairman Palazzo. Thank you, Ms. Bonamici. I now recognize 
Mr. Stockman.
    Mr. Stockman. I have a quick statement to make about--I am 
feeling as NASA is more symbolism over substance, and we have 
gotten away from as you talked about in the 1960s where we 
actually did things. I think the reason the popularity has 
dropped is because a lot of people have no idea really what we 
are doing now, and it is kind of muddled, and we keep going off 
in these different directions, and I was wondering, what was 
the ratio of bureaucrats to engineers in the 1960s versus now?
    Mr. Young. I obviously----
    Mr. Stockman. I could do Jay Leno, I guess.
    Mr. Young. Yeah, I don't have that number. It is a great 
question. I will tell you maybe a little bit relevant to that 
because I grew up in NASA, and even up through some, you know, 
modestly senior positions on Viking program where they landed a 
couple spacecraft on Mars and be a director of Goddard, and I 
finished that, I went off to my next life in, like, 1982 or 
1983. The amount of time that I spent doing other than what I 
would call important NASA science and engineering discovery 
research would have been single digit. I mean, you know, it was 
just not a factor. Now, don't get me wrong. I mean, OMB 
existed, you know, other organizations existed, but I--you 
know, my time and my dedication was 95-plus percent of doing 
science, engineering, research, discovery, whatever you want to 
call it. So I personally think that is a significant difference 
to what I observe today, and a source of enormous worry.
    Dr. Squyres. Well, I don't have anything like Tom's depth 
of experience but in the 30 or so years that I have been in 
this business, I cannot recall a time when I have seen 
organizations like OMB exercising the level of oversight of 
minute details of NASA's program. I haven't seen that to this 
extent in the years that I have been in this business. And I 
think one of the things that characterized the early days that 
we are talking about here, the 1960s, was that we had 
government organizations like OMB and like the Congress 
providing high-level priorities for the organization and then 
allowing people like Tom when he worked for NASA to figure out 
how to actually implement those policies and carry them out in 
detail. There was a level of oversight, you know, give and take 
back and forth that goes with that but I think that the level 
of detailed oversight that I am seeing at the agency these days 
is certainly unprecedented in my experience. And I think in 
some respects--and Tom touched on this in his opening 
statement--this has been detrimental to the agency doing its 
job as effectively as possible.
    Mr. Stockman. I think it is kind of ironic hearing a 
government agency complain about government. I kind of like 
that idea.
    I am just amazed. I am a little bit familiar with that, and 
I am amazed at the side roads we take, and I think it adds 50 
percent or more in the cost of a program, or more. I mean, it 
is bizarre some of the things that NASA is requested to do and 
that the employees are requested to do, the diversion of time. 
It is just amazing to me that we don't have the ability to trim 
that back, but if we could do it all across government, I think 
we would be much more efficient.
    Mr. Young. I think you are right again. You are talking 
about, you know, going by--the first large space project I 
worked on was Lunar Orbiter, a robot which was fundamentally 
aimed towards picking landing sites for Apollo and Surveyor. We 
signed a contract for it, and 27 months after that we were in 
orbit above the Moon, and people were a little upset because it 
was supposed to have been 24 months.
    Mr. Stockman. Well, and the last thing I got is a more 
parochial question. They are moving the Arc Jet facility, and I 
was wondering how that is going to impact future development or 
authority of other projects. Oh, you are not familiar with it? 
Then I will submit the question and you can research it.
    I am extremely frustrated seeing firsthand the amount of 
tangential and what I call nonproductive compliance. It is over 
the top at NASA, and I just wish that somehow we could reduce 
that. Thank you. I yield back the balance of my time.
    Chairman Palazzo. Thank you, Mr. Stockman.
    You know, there has been a lot of talk about priorities and 
missions without the proper funding, and I would just like to--
I think this garners consideration, that as mandatory spending 
continues to erode important discretionary investments like 
NASA, we are forced to make very difficult decisions. This is 
unfortunately the reality we must face until the Federal 
Government can get its finances in order. That is why this 
discussion draft complies with current law, the Budget Control 
Act, which passed the Senate, the House and was signed by the 
President, and I do hope that we can get mandatory spending 
under control soon so that we can continue funding essential 
and discretionary programs like NASA, like national defense, 
like homeland security, without having these debates over 
making sure that we fund our priorities appropriately.
    So I want to thank the witnesses for their valuable 
testimony and the Members for their questions. The Members of 
the Committee may have additional questions for you, and we 
will ask you to respond to those in writing. The record will 
remain open for two weeks for additional comments and written 
questions from members.
    The witnesses are excused and this hearing is adjourned.
    [Whereupon, at 11:32 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              



                   Answers to Post-Hearing Questions
Responses by Dr. Squyres


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record




         Submitted statement by Representative Dana Rohrabacher


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Submitted letter by Representative Dana Rohrabacher


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


           Submitted letter by Representative Steve Stockman


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  Submitted report by Robert D. Braun


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
